No. 20-1094

 

 

In THE
Supreme Court of the United States

HYUNDAI HEAVY INDUSTRIES Co., LTD.,

Petitioner,
Vv.

UNITED STATES OF AMERICA, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,730 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 26, 2021.

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
